No.

 

IN THE
Supreme Court of the United States

LONNIE ALONZO HOWARD,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent,

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, Lonnie Alonzo Howard, asks leave to file the enclosed Petition
for a Writ of Certiorari without prepayment of costs and to proceed in forma
pauperis in accordance with Supreme Court Rule 39. The filing of this petition is a
continuation of the representation of the Petitioner under a Criminal Justice Act
(18 U.S.C. ยง3006A) appointment of the undersigned by the United States District

Court for the District of North Dakota.
WHEREFORE Petitioner Lonnie Alonzo Howard prays for leave to proceed in
forma pauperis.

Respectfully submitted this 29th day of March, 2021.

COUNSEL OF RECORD:

    

rey for Petitioner
ND Atty. Reg. No. 04966
205 North 7% Street
P.O. Box 216
Wahpeton, ND 58074-0216
(701) 642-1660
(701) 642-2061 (fax)
markameyer@702com.net
